                                                       AUDIT




               OFFICE OF
               INSPECTOR GENERAL
               U.S.DEPARTMENT OF THE INTERIOR




 SELECTED INTERNAL CONTROLS IN
 THE OFFICE OF SPECIAL TRUSTEE
 FORAMERICAN INDIANS




Report No.: ZZ-EV-OST-000 1-20 12               December 20 I I
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR

                                                                              DEC 0 8 2011

Memorandum

To:            David J. Hayes
               Deputy Secretary oft

From:          Mary L. Kendall71 ~L...-~
               Acting Inspector Gene

Subject:       Audit of Selected Internal Controls in the Office of Special Trustee for American
               Indians
               Report No. ZZ-EV-OST-0001-2012

        This memorandum transmits our report detailing the results of our audit of six internal
control weaknesses that had been asserted to exist in the Office of Trust Fund Investments
(OTFI), a component of the Office of Special Trustee for American Indians (OST). The principal
deputy special trustee (PDST) made these assertions in his draft memorandum titled "FY 2011
Annual Assurance Statement on Internal Controls."

        The PDST asserted that OST had insufficient internal controls to ensure that only
authorized personnel initiated and approved investment transactions. He also stated that OST did
not have sufficient internal controls because the office lacks an automated order management
system. The fact that the same investment contractor provided two distinct services was also a
concern for the PDST. Finally, the PDST asserted that three transactions from FY 2010 did not
identify the rating of the securities that had been traded, which did not comply with OST policies
in place at that time.

         When we examined the related internal controls, however, we could not substantiate the
PDST' s assertions. We found that the internal controls for initiating and approving transactions
were adequate. The internal controls the PDST described as being insufficient without an order
management system were also sufficient. We could not confirm any weaknesses resulting from
the same contractor using two systems to perform two separate functions, and we could not
substantiate the assertion about the three securities because the securities actually had AAA
ratings.

      If you have any questions about this report, please do not hesitate to contact me at 202-
208-5745.


cc:     DOl Chief of Staff
        Assistant Secretary for Policy, Management and Budget
        Deputy Assistant Secretary for Budget, Finance, Performance, and Acquisitions



                               Office of Inspector General I Washington, DC
Table of Contents
Results in Brief ....................................................................................................... 1


Introduction ............................................................................................................. 2

   Objective ............................................................................................................. 2

   Background ......................................................................................................... 2


Findings................................................................................................................... 3

   Assertions 1 and 2: Investment Transactions ...................................................... 3

   Assertions 3 and 4: Order Management System ................................................. 4

   Assertion 5: One Service Provider ...................................................................... 5

   Assertion 6: Unrated Securities ........................................................................... 5


Conclusion .............................................................................................................. 6


Appendix 1: Scope and Methodology..................................................................... 7

   Scope ................................................................................................................... 7

   Methodology ....................................................................................................... 7

Results in Brief

At the request of the U.S. Department of the Interior, we evaluated six internal
control weaknesses that had been asserted to exist in the Office of Trust Fund
Investments (OTFI), a component of the Office of Special Trustee for American
Indians (OST). The weaknesses were asserted by the principal deputy special
trustee (PDST) in his draft memorandum titled “FY 2011 Annual Assurance
Statement on Internal Controls.” The PDST’s feeling that internal controls over
OTFI were insufficient was based on two investment errors that occurred during
fiscal year (FY) 2011. Although both mistakes were caught, the PDST qualified
the draft assurance statement due to his concerns about the controls.

The PDST asserted that OST had insufficient internal controls to ensure that only
authorized personnel initiated and approved investment transactions (assertions 1
and 2). He also stated that OST did not have sufficient internal controls because
the office lacks an automated order management system (assertions 3 and 4). The
fact that the same investment contractor provided two distinct services was also a
concern for the PDST (assertion 5). Finally, the PDST asserted that three
transactions from FY 2010 did not identify the rating of the securities that had
been traded, which did not comply with OST policies in place at that time
(assertion 6).

When we examined the related internal controls, however, we were unable to
validate the PDST’s assertions. We found that the internal controls for initiating
and approving transactions were adequate. The internal controls the PDST
described as being insufficient without an order management system were also
sufficient. We could not confirm any weaknesses resulting from the same
contractor using two systems to perform two separate functions, and we could not
substantiate the assertion about the three securities because the securities actually
had AAA ratings.




                                                                                    1
Introduction

Objective
Our objective was to assess the validity of six internal control weaknesses
asserted to exist in the Office of Trust Funds Investments (OTFI). These
weaknesses were asserted by the principal deputy special trustee (PDST) in the
Office of Special Trustee for American Indians (OST) draft memorandum titled,
“FY 2011 Annual Assurance Statement on Internal Controls.”

Background
Established by the American Indian Trust Fund Management Reform Act of 1994
(Public Law 103-412), OST was created to improve the accountability and
management of Indian funds held in trust by the Federal Government. As trustee,
the Department of the Interior (DOI) is responsible for managing both tribal trust
funds and Individual Indian Money (IIM) accounts, as well as resources that
generate income for those accounts. Each year, OTFI enters into approximately
170 trades involving IIM and tribal accounts.

In order to meet the requirements of Office of Management and Budget Circular
A-123, DOI requires OST to issue an annual assurance letter on internal controls.
This letter provides assurance to DOI that OST’s internal controls—operations,
policies, and procedures that managers use to achieve program goals and
safeguard program integrity—are in place and sufficient. Internal controls are
designed to provide reasonable (but not absolute) assurance that programs achieve
the objectives of effective and efficient operations, reliable financial reporting,
and compliance with applicable laws and regulations. Weaknesses or deficiencies
in internal controls compromise program effectiveness and can lead to fraud,
waste, and mismanagement.

The PDST felt that the internal controls over OTFI were insufficient due to two
incidents that occurred in fiscal year (FY) 2011. In the first incident, OTFI
erroneously purchased an unrated security. In the second, the trust services system
contractor, SEI Investments, Inc., erroneously posted a full call that should have
been a partial call. 1 Although both errors were caught, in October 2011 the PDST
provided the Office of Policy Management and Budget a “qualified” draft
assurance letter based on his concerns over the internal controls.

Because the effectiveness of these internal controls has a direct impact on the
scope of work for DOI’s annual financial statement audits, DOI asked us on
October 20 to determine the validity of the PDST’s assertions related to six OTFI
controls.

1
  Under certain circumstances, a bond issuer can call, or redeem, a bond before it matures. The issuer can
redeem either the full value of the bond, which is known as a full call, or a percentage of the value, or partial
call.


                                                                                                                2
Findings

At DOI’s request, we evaluated six of the PDST’s assertions related to the
sufficiency of OTFI internal controls. We could not substantiate his assertions.

Assertions 1 and 2: Investment Transactions
The PDST asserted that OST had insufficient internal controls to ensure only
authorized personnel initiated and approved investment transactions. 2 The PDST
gave two reasons for stating the controls were insufficient: (1) OTFI investment
officers phone the brokers/dealers directly to place an investment order instead of
placing orders through an automated order management system (OMS), and
(2) there is no automated approval of transactions.

While these conditions are true, OST has compensating controls in place to
prevent unauthorized personnel from initiating or approving transactions. Based
on our interviews with key personnel, document reviews, and an examination of
30 investment transactions completed in FY 2011, we determined that the internal
controls for initiating and approving investment transactions were adequate. In
particular, we found that—

     •	 The OTFI investment officer must use an authorized broker/dealer from
        OST’s official list, which is reviewed and updated annually. This control
        helps ensure brokers/dealers are familiar with the investment officers and
        thus prevent an unauthorized person from initiating an investment.

     •	 The approved brokers/dealers also have a letter listing the authorized
        OTFI investment officers who may initiate transactions. This control helps
        prevent unauthorized individuals from initiating an investment. Moreover,
        OST notifies the brokers/dealers that the investment officers can only
        purchase “securities that are issued or guaranteed by the U.S. Government
        and its agencies or instrumentalities.” As a result, this control should keep
        even authorized OTFI investment officers from purchasing an
        inappropriate security.

     •	 All investment transactions must be entered in the investment module of
        OST’s Trust Funds Accounting System (TFAS) for finalization. Until the
        transaction is entered in TFAS, OST has not actually bought or sold the
        investment. Only the five OTFI employees have access to the investment
        module. This control ensures that only individuals authorized by OST to
        initiate an investment can obligate OST and finalize a transaction.


2
  Assertion 1 stated: “…Investments had insufficient internal controls to insure that only authorized 

personnel initiated investment transactions.”

Assertion 2 stated: “…Investments had insufficient internal controls to insure that only authorized personnel

approved investment transactions.”



                                                                                                             3
     •	 SEI Investments automatically compares TFAS and broker/dealer entries
        against each other to make sure all the details match. If SEI identifies a
        discrepancy, it will hold the deal and research the matter further. All
        discrepancies must be corrected before the transaction can be completed.
        This control prevents a single individual from being able to initiate a
        transaction.

     •	 Since July, the director manually reviews transactions daily. Settlements
        occur at least 1 day after the transaction, giving the director time to cancel
        the transaction if he identifies a problem during his review. In the 30
        sample transactions we examined, an average of 14 days elapsed from
        agreement to settlement. This control helps ensure that only authorized
        transactions are confirmed.

Although these internal controls are currently sufficient, OST could strengthen its
approval controls by enabling an existing feature in TFAS that would require an
automated approval to complete an investment transaction. In August 2011, the
associate PDST requested this feature be enabled, but she was overruled by the
PDST.

Assertions 3 and 4: Order Management System
The PDST asserted that OST had insufficient internal controls because it lacked
an OMS. 3 An OMS, however, is not an internal control in and of itself; it is a tool
for buying and selling investments. Therefore, the lack of an OMS is not an
internal control weakness.

Based on a closer review of the PDST’s assertions, we determined the underlying
internal controls he described as being insufficient without an OMS were actually
in place:

     •	 Compliance. A compliance check reviews the investment transaction
        against a set of standards to ensure the transaction meets those standards.
        For example, a compliance check may validate that the security in the
        transaction has the required rating. A separate, automated compliance
        check is not necessary because the director of OTFI manually reviews
        transactions for compliance with policy.


3
  Assertion 3 stated: “…Investments had insufficient internal controls to insure that only authorized
personnel initiate, approve and execute transactions independently with the oversight of a compliance
function using an order management system or other system that provides for the ability to perform real time
audits for trading approvals, third party price comparison to validate orders, compliance with all applicable
policies and laws and the safeguarding of assets and investment transaction are conducted by law by an
individual dispassionate individual from a separate reporting authority from the portfolio manager and
supervisor.”
Assertion 4 stated: “…Investments had insufficient internal controls since an order management system, trust
and custody and accounting systems fails to provide through put processing of transactions, fails to provide
adequate separation of duties, fails to provide real time audit information that illustrates compliance with all
applicable laws and policies and controls to initiate and complete transactions.”


                                                                                                              4
     •	 Audit Logging. Audit logging refers to a computer system logging all
        activity on the system so that a third party (such as an auditor) can audit
        the log as the activity happens to ensure compliance with policies. TFAS
        already does this.

     •	 Third-Party Price Comparison. A third-party price comparison is a
        comparison of the actual purchase or sale price against prices available
        from other brokers/dealers. The policy in effect during FY 2011 required
        OFTI investment officers to obtain three bids for each security purchase or
        sale; therefore, a price comparison control is already in place.

Assertion 5: One Service Provider
The PDST asserted that OST had insufficient internal controls because SEI
provided both custody and accounting services. 4 This means that the custody
service provider’s records cannot be reconciled to an accounting system
provider’s record. 5 The use of one provider for both custody and accounting
services, however, is not an internal control weakness in and of itself.

SEI uses two separate systems, one for custody of assets and the other for
accounting. Custody is maintained by a subsidiary of SEI, while accounting
records are maintained by SEI. In September 2011, Pricewaterhouse Coopers LLP
completed a Statement on Standard for Attestation Engagements (SSAE) 16
review on both systems. The SSAE 16 review compared the internal controls of
the two systems against SEI management descriptions of the systems’ design and
control objectives during a specified period. The review did not identify any
deficiencies with the systems.

Assertion 6: Unrated Securities
The PDST asserted that OST had insufficient internal controls because three
transactions from FY 2010 did not identify the rating of the securities being
traded. 6 This assertion is misleading for two reasons. First, OST’s investment
policy required only that securities be rated AA or better, not that the rating be
specifically identified. Second, the wording of the assertion implies that these
three transactions were unrated. All three transactions, however, were Fannie Mae
securities and all Fannie Mae securities have AA+ Standards and Poor ratings.
Therefore, we could not substantiate this assertion.



4
  Assertion 5 states: “…Trust Services fails to utilize a trust and custody service provider to provide,
custody, asset servicing and safekeeping of assets. Currently Trust Services utilizes SEI Investments Trust
3000 product as a custodian that does not provide for Trustee Services to maintain a separate record of assets
to reconcile the OST’s transactions.”
5
  A custody provider maintains physical custody of an asset, either in an electronic format or as a hard copy
asset. In OST’s case, the asset would be the security purchased.
6
  Assertion 6 states: “Investments had identified a weakness on the Statement of Assurance on Internal
Controls over Financial Reporting as of 6/30/2011 because an unrated security was purchased. During an
OTRA review of 18 additional transactions, 3 transactions did not identify the ratings for the securities as
required by OST investment policies.”


                                                                                                             5
Conclusion

The PDST made multiple assertions concerning the effectiveness of the internal
controls used by OTFI to prevent or detect investment issues. Based on the
reasons we outline in this report, we could not substantiate his assertions.




                                                                                 6
Appendix 1: Scope and Methodology

Scope
Our scope was limited to the six assertions in the annual assurance statement
related to internal controls in effect during FY 2011. Our audit was not intended
to provide an opinion on OTFI's internal controls or the accuracy of their financial
records. In addition, our audit was limited to the assertions in the annual
assurance statement related to internal controls over investments at OTFI, and we
express no conclusions or opinions regarding any of the other assertions in the
memorandum.

We conducted this audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform audits to
obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective.

Methodology
We summarized the assertions in the draft “Annual Assurance Statement on
Internal Controls” for readability. We have, however, included the exact text of
each assertion in a footnote for accuracy.

In order to achieve our audit objective, we—

   •	 Interviewed appropriate OST personnel at all levels of the organization;
   •	 Interviewed appropriate NBC personnel responsible for contracting for
      OST goods and services;
   •	 Interviewed appropriate OCIO personnel responsible for completing the
      TFAS iStat review;
   •	 Identified and reviewed laws, regulations, policies and procedures related
      to OST and its investment process, including policies in place at SEI, an
      OST contractor;
   •	 Identified and reviewed reports related to OST controls, including the
      system security plan for TFAS, draft iStat for TFAS, Statement of
      Auditing Standards 70 review of SEI, and SSAE 16 review for SEI;
   •	 Gained an understanding of investments and the investment process;
   •	 Reviewed the Office of Trust Review and Audit (OTRA) final report,
      “Audit of Internal Controls in the Office of Trust Funds Investments
      (OTFI),” dated November 1, 2011, as well as 24 supporting work papers;




                                                                                   7
•	 Selected and reviewed a judgmental sample of 30 investment transactions
   completed in FY 2011 and validated compliance with policies and
   procedures;
•	 Selected and reviewed a judgmental sample of 30 system controls in
   TFAS and validated they were operational;
•	 Selected and reviewed a judgmental sample of two monthly statements of
   Treasury transactions and validated they matched supporting
   documentation;
•	 Selected and reviewed 12 daily cash reconciliations and validated all
   differences were identified and corrected;
•	 Selected and reviewed 23 daily investment exception monitoring reports
   and validated the par value of securities agreed with the value of the
   securities held by SEI (the security custodian); and
•	 Conducted other work that we considered necessary to answer the
   objective.




                                                                            8
                                   


            Report Fraud, Waste,                                     
            and Mismanagement
                                      
                 Fraud, waste, and mismanagement in
                 government concern    everyone: Office
               of Inspector General staff, Departmental
                employees, and the general public. We
                   actively solicit allegations of any
                          and wasteful practices, fraud,
               inefficient
                    and mismanagement related to
              
                Departmental or Insular Area programs
                                                        
                    and operations.  You can report
                   allegations to us  in several ways.
                                       
                                   
                                   
     By Mail:	         U.S. Department of the Interior  
                       Office of Inspector General  
                       Mail Stop 4428 MIB  
                       1849 C Street, NW  
                       Washington, D.C. 20240  
      
               
     By Phone:	        24-Hour Toll Free                               
                                                           800-424-5081
                       Washington Metro Area               202-208-5300
                                                                       
      
               
     By Fax:	          703-487-5402
      
     By Internet:	     www.doioig.gov
  
                                                                           
